         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report



       Results of Independent
       Groundwater Sampling at
       Neal’s Dump Superfund Site
       Report No. 09-P-0110

       March 4, 2009
Report Contributors:                             Carolyn Copper
                                                 Patrick Milligan
                                                 Martha Chang
                                                 Kathryn Hess
                                                 Jayne Lilienfeld-Jones
                                                 Denise Rice




Abbreviations

EPA            U.S. Environmental Protection Agency
NPL            National Priorities List
OIG            Office of Inspector General
PCBs           Polychlorinated biphenyls
Site           Neal’s Dump Superfund Site




Cover photo:     Grass cover over the remediated Neal’s Dump Superfund Site, Spencer,
                 Indiana, May 2008 (photo by EPA OIG).
                       U.S. Environmental Protection Agency                                              09-P-0110
                                                                                                      March 4, 2009
                       Office of Inspector General


                       At a Glance
                                                                         Catalyst for Improving the Environment


Why We Did This Review           Results of Independent Groundwater Sampling
The Office of Inspector          at Neal’s Dump Superfund Site
General (OIG) is testing long-
term monitoring results at        What We Found
Superfund sites the U.S.
Environmental Protection         The OIG obtained groundwater samples from two private drinking water wells on
Agency (EPA) has deleted         residential properties adjacent to the Neal’s Dump Superfund Site on May 28,
from the National Priorities     2008. Groundwater samples from these residential wells have been part of EPA’s
List (NPL). Neal’s Dump
                                 long-term monitoring conducted at Neal’s Dump. Our results showed that PCBs
Superfund Site, located near
Spencer, Indiana, is one of      in the two residential wells did not exceed safe levels for drinking water. These
eight sites being reviewed.      results are consistent with EPA’s monitoring results.

Background                       EPA Region 5 reviewed a draft of this report and had no comment.

Neal’s Dump was
contaminated with
polychlorinated biphenyls
(PCBs) from disposal of
electrical equipment and other
PCB-contaminated materials.
EPA deleted Neal’s Dump
from the NPL in 1999, which
signified clean-up goals had
been achieved.




For further information,
contact our Office of
Congressional, Public Affairs
and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2009/
20090304-09-P-0110.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL


                                           March 4, 2009


MEMORANDUM

SUBJECT:               Results of Independent Groundwater Sampling
                       at Neal’s Dump Superfund Site
                       Report No. 09-P-0110


FROM:                  Wade T. Najjum
                       Assistant Inspector General
                       Office of Program Evaluation

TO:                    Bharat Mathur
                       Acting Region 5 Administrator


This is our final report on the subject evaluation conducted by the Office of Inspector General
(OIG) of the U.S. Environmental Protection Agency (EPA). This report contains sampling
results from residential wells adjacent to the Neal’s Dump Superfund Site. The OIG obtained its
samples in May 2008.

The estimated cost of this report – calculated by multiplying the project’s OIG staff days by the
applicable daily full cost billing rates in effect at the time, then adding in the contractor costs –
is $99,200.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact Carolyn Copper, Director for Program
Evaluation, Hazardous Waste Issues, at 202-566-0829 or copper.carolyn@epa.gov; or Pat
Milligan, Project Manager, at 215-814-2326 or milligan.patrick@epa.gov.
                                                                                        09-P-0110


Purpose
The Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA) is
evaluating long-term monitoring at Superfund sites deleted from the National Priorities List
(NPL). The overall objective is to evaluate whether EPA has valid and reliable data on the
conditions of these sites. Neal’s Dump Superfund Site near Spencer, Indiana, is one of eight
sites being reviewed.

Background

Neal’s Dump (the Site) received residential and industrial wastes between 1967 and 1972,
including materials contaminated with polychlorinated biphenyls (PCBs). The half-acre Site is
located in Owen County, approximately 15 miles northwest of Bloomington, Indiana. Two
residential properties are adjacent to the southern boundary of the Site.

Construction of final remedy was completed in March 1999, and included removing all
contaminated materials. EPA deleted Neal’s Dump from the NPL in October 1999, which
signified clean-up goals were achieved through remedial action. Groundwater monitoring was
conducted to evaluate the effectiveness of the Site clean-up. Following the first Five-Year
Review in 2003, the four monitoring wells were closed. However, private residential wells
continued to be sampled up to 2008. The 2008 Five-Year Review concluded that sampling in the
residential wells also should be eliminated. EPA concluded in the 2003 and 2008 Five-Year
Reviews that the remedy was protective of human health and the environment.

Noteworthy Achievements
EPA ensured that over 7,000 tons of PCB-contaminated material were excavated at the Site and
disposed of in a commercial landfill permitted to accept this material. The excavation was filled
with clean soil and reseeded with a grassy cover. A deed restriction was implemented that
prohibited use of groundwater underlying the site. Post construction activities included
monitoring groundwater quality for 5 years in four monitoring and two residential wells.

Scope and Methodology
We conducted our work from May 2008 to February 2009 in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the evaluation
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our evaluation objectives. We reviewed key historic documents, including
past sampling results and decision documents such as the Record of Decision Amendment and
Five-Year Reviews. We also interviewed the remedial project managers from EPA Region 5 and
the Indiana Department of Environmental Management. We collected groundwater samples and
conducted a limited site inspection.

We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our evaluation objectives. This report only transmits the results of the



                                                1
                                                                                      09-P-0110


sampling we conducted. We plan to issue a summary report that, as appropriate, will include
additional findings from all or some of the eight sites we are evaluating.

Sampling Method

We acquired a qualified environmental contractor from the list of General Services
Administration contractors to take groundwater samples and conduct a site inspection. On
May 28, 2008, our contractor collected samples from two residential wells for laboratory
analysis. The samples were analyzed in the laboratory for seven different manufactured blends
of PCBs, also known as Aroclors. Due to the scope of the OIG evaluation, our contractor tested
only for PCBs and did not analyze for other contaminants typically monitored in drinking water.
OIG staff members were present to ensure that proper sampling and site inspection quality
assurance protocols were followed. Historically, EPA sampled four on-site groundwater
monitoring wells, along with the residential wells. EPA closed these monitoring wells in 2004,
and as a result, the wells were not available for us to sample.

For both sampling locations [Resident Well A (RW-A) and Resident Well B (RW-B)], the
groundwater was collected from exterior taps. See Figure 1 for well locations.




                                               2
                                                                                          09-P-0110


The tap for RW-B was located at the well head. The tap for RW-A was located about 150 feet
east of the well head. Prior to taking the samples, the wells were purged at a rate of 6 gallons per
minute for approximately 15 minutes using the submersible pumps installed in the wells. The
temperature, conductivity, pH, oxidation-reduction potential, dissolved oxygen concentration,
and turbidity were monitored to ensure that all standing water in the wells had been purged prior
to sampling. Samples were collected from each well using proper sampling and quality
assurance protocols. Each sample was analyzed at a qualified laboratory using EPA method
8082. In addition, sets of samples were given to the contractor for the responsible party and to
EPA Region 5 for their own analyses.

We compared our results to the national primary drinking water standard for PCBs of 0.5
micrograms per liter. We also compared our results to the most recent historical data for the site,
collected in 2003, to test the reliability of the historical data.

A limited site inspection was conducted by OIG staff and the contractor.

Results
We observed that the site was generally well maintained. The grass cover appeared healthy and
no signs of erosion or settling of the soil used to fill the excavation were observed. Our sample
results showed that PCBs in the two residential wells did not exceed safe levels for drinking
water. The samples were not analyzed for other substances, and therefore are not an overall
assessment of the safety of the water in these residential wells. Our results are consistent with
the results reported in Region 5’s 2003 and 2008 Five-Year Reviews for the Site. Further,
Region 5 reports that no analyses of water collected in the residential wells since 1991 have
detected PCBs above the drinking water standard.

EPA Region 5 reviewed a draft of this report and had no comment.




                                                 3
                                                                                                                          09-P-0110




                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                               BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1   Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                             4
                                                                                    09-P-0110


                                                                                Appendix A

                                    Distribution

Office of the Administrator
Acting Regional Administrator, Region 5
Acting Deputy Regional Administrator, Region 5
Director, Superfund Division, Region 5
Director, Office of Site Remediation and Innovation Technology, Office of Solid Waste
       and Emergency Response
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Acting General Counsel
Acting Associate Administrator for Congressional and Intergovernmental Relations
Acting Associate Administrator for Public Affairs
Chief, Construction and Post-Construction Branch, Office of Solid Waste
       and Emergency Response
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Region 5
Deputy Inspector General




                                              5
